Memorandum from the Office of the Inspector General



February 6, 2013

Preston D. Swafford, LP 3R-C

FINAL REPORT – AUDIT 2011-13895 – REVIEW OF BROWNS FERRY NUCLEAR
PLANT FIRE PROTECTION



Attached is our final report on our review of Browns Ferry Fire Protection. This report is
for information purposes only; therefore, no response is necessary.

Recipients of this report are responsible for safeguarding it to prevent publication or
other improper disclosure. Because information contained in this report may be subject
to public disclosure once the report is finalized, please advise us of any sensitive
information in this report that you recommend be withheld.

If you have any questions or wish to discuss our findings, please contact me at
(865) 633-7450 or Lisa H. Hammer, Director, Operational Audits, at (865) 633-7342.
We appreciate the courtesy and cooperation received from your staff during the review.




Robert E. Martin
Assistant Inspector General
 (Audits and Evaluations)
ET 3C-K

JMW: DBS
Attachment
cc (Attachment):
      Peyton T. Hairston, Jr., WT 7B-K
      Joseph J. Hoagland, WT 7C-K
      William D. Johnson, WT 7B-K
      Richard W. Moore, ET 4C-K
      Emily J. Reynolds, OCP 1L-NST
      Joseph W. Shea, LP 3D-C
      Robert B. Wells, WT 9B-K
      Andrea L. Williams, WT 9B-K
      OIG File No. 2011-13895
        
 


                                        Audit Report
 
Office
      of the Inspector General                                      

                                 To the Executive Vice President
                                 and Chief Nuclear Officer,       
                                 Nuclear Power Group 
                                                                    

 

 

 

 

REVIEW OF BROWNS
 

 
FERRY NUCLEAR PLANT
 

FIRE PROTECTION 


 




 

 
 
 

 

Auditor                                             Audit 2011-13895
Jamie M. Wykle                                      February 6, 2013


                                   
Office of the Inspector General                                   Audit Report




ABBREVIATIONS
BFN                        Browns Ferry Nuclear Plant
CO                         Confirmatory Order
ERM                        Enterprise Risk Management
FPRA                       Fire Probabilistic Risk Assessment
LAR                        License Amendment Request
MSO                        Multiple Spurious Operations
NFPA                       National Fire Protection Association
NPG                        Nuclear Power Group
NRC                        Nuclear Regulatory Commission
OMA                        Operator Manual Actions
RCA                        Root Cause Analysis
TVA                        Tennessee Valley Authority
VP                         Vice President




Audit 2011-13895
Office of the Inspector General                                                                       Audit Report




TABLE OF CONTENTS
EXECUTIVE SUMMARY ................................................................................ i

BACKGROUND................................................................................................ 1

OBJECTIVE, SCOPE, AND METHODOLOGY ........................................ 2

FINDINGS ......................................................................................................... 2
    DELAYS IMPACTED BFN’S ABILITY TO MEET THE 2012
    COMMITMENT DATE………………………………………………………………2

    MITIGATION STRATEGY TO REDUCE CONSEQUENCES
    NEEDS IMPROVEMENT ................................................................................ 5

RECOMMENDATIONS .................................................................................. 5

MANAGEMENT’S RESPONSE.................................................................... 6


APPENDIX
MEMORANDUM DATED JANUARY 15, 2013, FROM PRESTON SWAFFORD
TO ROBERT E. MARTIN




Audit 2011-13895
                               Audit 2011-1389
                                     2       95 – Reviiew of Brrowns Ferrry Nucle
                                                                                ear
                                              Plant Firre Protec
                                                               ction
                                            EXECUTIV  VE SUMM  MARY

In
 n May 2004 4, the Nucleear Regulattory Commiission (NRC   C) incorporated the
National
N         Fire
             e Protectionn Associatioon’s (NFPA A) Standardd 805 as a vvoluntary
alternative to
             o the existin
                         ng fire prote
                                     ection standdards as puublished in Section 50
                                                                                 0.48,
“F
 Fire Protecttion,” and Appendix
                        A          R of the 10 CCode of Fed deral Regulations
(1
 10 CFR 50)). On Marc   ch 4, 2009, the Tennesssee Valleyy Authority ((TVA)
committed to o the NRC to transition n Browns F Ferry Nuclear Plant (BFN) to
NFPA
N      805 by
            b a license e amendme   ent datei of M
                                                 March 4, 20
                                                           012.

TVA
T     has inccluded the BFN
                         B     NFPA 805 transittion project as part of ffire protectiion
risk in its En
             nterprise Rissk Management proce   ess. We revviewed the BFN transition
to
 o the NFPA  A 805 progra am. Our au udit objectivve was to e
                                                            evaluate BF
                                                                      FN’s
performance  e in transitio
                          oning to the
                                     e NFPA 805  5 program requiremen nts by the
  cense amendment date.
lic

TVA
T    did not meet the NFPAN      805 transition da
                                                 ate for Liceense Amend   dment Request
Submittal
S          off March 201  12 and has revised its commitment date to M    March 2013 3.
We
W determin   ned the Nuc   clear Powe er Group’s d
                                                 delays in traansitioning to NFPA 805
adversely immpacted BF   FN’s ability to
                                       t meet thee 2012 com mmitment da  ate.
Specifically,
S              historical in
                           ndecisivene ess coupledd with a lacck of due diligence andd
in
 nadequate attention
              a         to
                         o emerging industry fire e protectionn regulation
                                                                         ns contributted
to
 o revising th
             he commitm   ment date. In addition, the Nucle  ear Power G Group’s
mitigation
m          sttrategy as provided
                          p         in the Enterprrise Risk M
                                                            Managemen    nt does not
in
 nclude cons sideration ofo the conse equences o of not meetiing the Marrch 2013
deadline, wh hich would include NR   RC-assesse ed penaltiess.

We
W recomm   mend the Ex  xecutive Vicce Presidennt and Chief Nuclear O Officer deve
                                                                                 elop
contingency y plans in caase of unsuuccessful rissk mitigatio
                                                            on and conttinue monito
                                                                                  oring
 he project activities
th          a          rellated to me
                                    eeting the neew committment date.

In
 n response to a draft of
                       o our reporrt, TVA mannagement a  agreed with
                                                                   h our
re
 ecommendation and has h taken action to add dress this rrecommend dation. See
                                                                             e the
Appendix
A         for managem ment's comp plete respon
                                             nse.




                                                            
i
     Plants transittioning to NFPA
                                 A 805 are requ
                                              uired to change
                                                            e their existing licensing basiss from 10 CFR 50,
     Appendix R, to 10 CFR 50.48(c).

                                                                                                         Page i
Office of the Inspector General                                                                  Audit Report


BACKGROUND
On March 22, 1975, after commercial operation began on Browns Ferry Nuclear
Plant (BFN) Units 1 and 2, a fire at BFN led to the shutdown of both operating
units. Subsequently, the Nuclear Regulatory Commission (NRC) published
Section 50.48, “Fire Protection,” and Appendix R of the 10 Code of Federal
Regulations (10 CFR 50). Section 50.48 applies to all licensed nuclear power
electric generating stations in operation, whereas Appendix R applies only to
those plants like BFN operating prior to January 1, 1979, with some exceptions.
In general, different fire protection requirements are applicable to licensed units
that began commercial operations before 1979 and those that began commercial
operations after 1979. These fire protection rules are included as part of a
nuclear plant’s licensing basis.

In May 2004, the NRC made additional changes with regard to fire protection
regulations by approving the incorporation of the National Fire Protection
Association (NFPA) Standard 805 into 10 CFR 50.48(c). NFPA 805 was a
voluntary alternative to the fire protection rules set forth in Appendix R.
NFPA 805’s methodology includes establishing fire protection (1) systems and
features with design elements for all modes of reactor operation and
(2) procedures, systems, and features for those nuclear power plants that are
either decommissioning or permanently shut down.

On March 4, 2009, TVA committed to the NRC to transition BFN to the NFPA
Standard 805 by a License Amendment Request (LAR)1 date of March 4, 2012.
However, TVA notified the NRC in October 2011 the transition date would not be
met. TVA subsequently committed to an LAR date of March 2013.

TVA has included the Fire Protection Risk in its Enterprise Risk Management
(ERM) catalog since fiscal year 2010. Specifically, the current fire protection risk
includes the “ . . . risk of not meeting the License Amendment Request date of
March 29, 2013 (BFN) for transitioning to National Fire Protection Association
(NFPA) 805 requirements . . . .” According to NRC guidance, if TVA fails to meet
the submittal date, or if the LAR is unacceptable, the NRC would take traditional
enforcement action. This action would consist of a Notice of Violation and the
use of Enforcement Policy discretion to allow for possible civil penalties, up to
and including daily civil penalties, depending on the specifics of the situation.




                                                            
1
     Plants transitioning to NFPA 805 are required to change their existing licensing basis from 10 CFR 50,
     Appendix R, to 10 CFR 50.48(c).

Audit 2011-13895                                                                                      Page 1
Office of the Inspector General                                        Audit Report


OBJECTIVE, SCOPE, AND METHODOLOGY
TVA has included the BFN NFPA 805 transition project as part of fire protection
risk in its ERM process. We reviewed the BFN transition to the NFPA 805
program. Our audit objective was to evaluate BFN’s performance in transitioning
to the NFPA 805 program requirements by the license amendment date. To
achieve our objective, we:

   Identified and reviewed relevant TVA policies, BFN procedures, and NRC
    regulations related to the NFPA 805 transition project.
   Reviewed documentation related to the NRC’s inspections, TVA’s RCA
    report, and TVA’s NFPA 805 transition plan and corresponding schedule.
   Attended (1) NRC public meetings and (2) a BFN monthly face-to-face
    NFPA 805 transition meeting.
   Interviewed TVA Nuclear Power Group (NPG) corporate and BFN personnel
    to gain an understanding of the history of the transition.
   Interviewed NRC personnel onsite at BFN regarding actions to be taken by
    the NRC.
   Obtained ERM documentation to determine risks and mitigation plans for
    BFN’s NFPA 805 transition project.

We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objectives.
We believe the evidence obtained provides a reasonable basis for our findings
and conclusions based on our audit objectives.

FINDINGS
TVA did not meet the NFPA 805 transition date of March 2012 and has now
committed to an LAR date of March 2013. As described below, we determined
NPG’s delays in transitioning to NFPA 805 adversely impacted BFN’s ability to
meet the 2012 commitment date. In addition, NPG did not have a contingency
plan in place in the event the commitment date became unattainable.

Delays Impacted BFN’s Ability to Meet the 2012 Commitment Date
Although NFPA 805 was approved for use as a voluntary alternative to
Appendix R in May 2004, TVA did not commit to transitioning until March 2009.
A TVA root cause analysis (RCA), issued in March 2010 in response to three
noncompliances with fire protection regulations, stated that disagreement over
Appendix R compliance alternatives existed between 2006 and 2008. According
to the RCA, site groups advocated transitioning to NFPA 805 while NPG


Audit 2011-13895                                                            Page 2
Office of the Inspector General                                                                    Audit Report


corporate management supported submitting operator manual actions2 (OMA)
exemption requests. The RCA further states:

                  The Appendix R compliance strategy was decided sometime in
                  2008 by the CNO, who elected to adopt a ‘wait and see’ posture
                  with regard to NFPA 805 because of the large cost and difficulties
                  experienced by the pilot plants. The BFN Licensing Manager
                  discussed the option with the former CNO twice but when
                  presented with an emphatic response from the former CNO, did
                  not clearly point out the potential regulatory risks of not
                  committing to NFPA 805.3

TVA’s RCA self-identified the root causes of its noncompliances as a
combination of an entrenched Appendix R compliance position, lack of rigorous
review and resolution of regulatory documents, passive management of the BFN
Appendix R program, and failure to aggressively implement identified actions.
According to the RCA:

                  As the NRC Fire Protection requirements and the NRC/Industry
                  ‘Fire Protection dialog’ evolved over time, TVA failed to
                  acknowledge certain non-compliant aspects of the Browns Ferry
                  Fire Protection program. As a result, the September/October
                  2009 NRC Triennial Fire Protection Inspection identified three
                  ‘Greater Than Green’ findings, two of which were symptomatic of
                  the disconnect between the TVA and NRC understandings of the
                  Browns Ferry Fire Protection Licensing Basis.

As described in the March 2010 RCA, TVA did not immediately transition to
NFPA 805 but instead took more of a ‘wait and see’ approach.

In March 2009, TVA added a Vice President (VP) of Nuclear Engineering who
made the decision to make significant risk reduction modifications and procedure
changes to reduce OMAs at BFN in parallel with the development of NFPA 805
analysis and application. Although TVA made progress toward transitioning to
NFPA 805, TVA informed the NRC in October 2011 that the March 2012
transition date would not be met. According to the VP, Nuclear Engineering,
failure to meet the March 2012 transition date was primarily due to the following:

      In November 2009, the NRC released Multiple Spurious Operations (MSO)
       guidance. The MSO scope was much larger than originally anticipated
       requiring further analysis and documentation. This expanded the scope of
       the NFPA 805 transition project.


                                                            
2
     A proceduralized activity carried out by plant personnel outside the control room to respond to a fire and
     bring the plant to a safe and stable condition.
3
     The Chief Nuclear Officer discussed in the RCA is no longer with TVA.

Audit 2011-13895                                                                                         Page 3
Office of the Inspector General                                                                  Audit Report


      The decision to make modifications and procedure improvements for risk
       reduction parallel with the development of NFPA 805 analysis and application
       made the plant safer and faster but impacted the schedule. According to the
       VP, Nuclear Engineering, most utilities perform engineering, safety cable
       routing, and modification identification necessary to apply for the NFPA 805
       license and perform plant modifications after the license approval. These
       parallel modifications were a faster way to make the plant safer but negatively
       impacted the NFPA 805 transition schedule.
      BFN is a 3-unit plant, and completing modifications and procedures to the
       plant in parallel have created a challenge. According to NPG personnel, the
       cable routing data for BFN required reconstitution to meet the MSO
       requirements and reduce OMAs.

While the above reasons for failing to meet the commitment date are valid, we
believe other factors also impacted the timeframe for commitment. Specifically:

      As an element of the NFPA 805 project plan, BFN had to complete a Fire
       Probabilistic Risk Assessment (FPRA), which included an FPRA peer review
       of the risks assessed. On September 8, 2011, an assessment on BFN’s
       FPRA Peer Review readiness was conducted by an independent expert. The
       expert recommended TVA delay the peer review that was scheduled for the
       week of October 24, 2011, due to the fact BFN was not ready for the peer
       review. TVA decided to take the expert’s recommendation and delayed the
       FPRA until the week of January 23, 2012, but the delay in conducting the
       peer review contributed to BFN not meeting its transition date of March 4,
       2012.
      According to the former NRC resident inspector, in 2009, the NRC asked
       plants to delay NFPA 805 implementation schedules because the NRC was
       overwhelmed with too many LAR submittals. Delaying the schedule could
       have extended the commitment date for approximately 1 year without having
       to apply for enforcement discretion extension. TVA opted not to delay
       because they had committed to meeting the original submittal date in
       response to the RIS 2006-10.

As pointed out above, TVA’s delays in making the decision to transition
negatively impacted the project. On January 13, 2012, TVA informed the NRC
the new commitment date would be March 29, 2013. On February 17, 2012,
TVA submitted the additional planned fire risk reduction modifications for BFN
Units 1, 2, and 3. The NRC subsequently extended TVA’s enforcement
discretion until March 29, 2013, by a confirmatory order (CO)4 issued May 16,
2012. As previously stated, according to NRC guidance, if TVA “ . . . fails to
meet the submittal date established by the CO, or if the LAR is unacceptable, the
                                                            
4
     A CO is an order that confirms the commitments made by a license or individual to take certain actions.
     Before issuance of the CO, the licensee or individual and the NRC mutually agree on the terms of the
     order.

Audit 2011-13895                                                                                      Page 4
Office of the Inspector General                                            Audit Report


licensee would be in violation of the CO and the NRC would take traditional
enforcement action. Enforcement would consist of a Notice of Violation and the
use of Enforcement Policy discretion to allow for possible civil penalties, up to
and including daily civil penalties, depending on the specifics of the situation.”
NPG personnel stated TVA’s internal schedule currently shows TVA remains on
track to complete the submittal in accordance with the confirmatory order due
date.

Mitigation Strategy to Reduce Consequences Needs Improvement
TVA has recognized the Fire Protection Risk in its ERM catalog since fiscal
year 2010 and rated it as one of the top five risks in the compliance with laws and
regulations category on the July 13, 2011, ERM risk map. In March 2012, the
risk was defined as a three-fold risk which included the “ . . . risk of not meeting
the License Amendment Request date of March 29, 2013, (BFN) for transitioning
to National Fire Protection Association (NFPA) 805 requirements.”5 According to
the risk summary, NPG believed the risk of not meeting the March 29, 2013, date
was “low” but recognized increased regulatory scrutiny had resulted from the
extension of the LAR submittal date.

NPG’s mitigation strategy to meet the commitment date was to closely monitor
the project activities, which included performing evaluations, developing
transition programs, performing the probabilistic risk assessment, and preparing
and submitting the LAR. NPG’s contingency actions to reduce the
consequences of not meeting the deadline included monthly management
briefings and weekly team meetings, maintaining project milestones, weekly
status meetings to closely track all open issues/actions, and licensing
involvement in monitoring schedule progress.

However, in our opinion, additional actions are needed to adequately reduce the
potential consequences of the risk, which include civil penalties as well as
damage to TVA’s reputation. Current actions do not address funds necessary to
cover possible civil penalties nor potential steps to be taken to repair reputational
damage if the risk occurs. Although, according to the VP, Nuclear Engineering,
TVA is on track to meet the March 29, 2013, LAR date, past experience has
proven the potential exists for not meeting the required date.

RECOMMENDATIONS
We recommend the Executive Vice President and Chief Nuclear Officer develop
contingency plans in case of unsuccessful risk mitigation and continue monitoring
the project activities related to meeting the new commitment date.




                                                            
5
     The remaining two risks were not related to BFN.

Audit 2011-13895                                                                Page 5
Office of the Inspector General                                          Audit Report


MANAGEMENT'S RESPONSE
NPG management responded to a draft of this report. To address our
recommendation, management stated a risk and mitigation dashboard indicator
has been implemented. This dashboard is used in the regular senior leadership
updates. Further, “the technical work for the project is essentially complete, and
detailed reviews required for the submittal package are in progress. TVA
remains on track to complete the submittal in accordance with the confirmatory
order due date.”

We agree with the actions taken by NPG management.




Audit 2011-13895                                                              Page 6
APPENDIX
Page 1 of 1
